No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
PETITIONER
v.
FALL LINE PATENTS, LLC, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via first-class mail, postage prepaid, this
23rd day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2275 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on December 23, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 23, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
FALL LINE PATENTS, LLC, ET AL
Matthew James Antonelli
Antonelli, Harrington & Thompson, LLP
Suite 450
4306 Yoakum Boulevard
Houston, TX 77006
713-581-3000
matt@ahtlawfirm.com
James R. Barney, Attorney
Finnegan, Henderson, Farabow, Garrett & Dunner, LLP
Firm: 202-408-4000
901 New York Avenue NW
Washington, DC 20001
202-408-4412
james.barney@finnegan.com
Jeremy Seth Pitcock, Attorney
The Pitcock Law Group
1501 Broadway
12th Floor
New York, NY 10036
646-571-2237
jpitcock@pitcocklawgroup.com
Edward M. Cannon
Knobbe, Martens, Olson & Bear, LLP
14th Floor
2040 Main Street
14th Floor
Irvine, CA 92614
949-760-0404
ted.cannon@knobbe.com
Matthew James Antonelli
Antonelli, Harrington & Thompson, LLP
Suite 450
4306 Yoakum Boulevard
Houston, TX 77006
713-581-3000
matt@ahtlawfirm.com

John C. O'Quinn
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
john.oquinn@kirkland.com
Stephen Yee Chow
Hsuanyeh Law Group, PC
11 Beacon Street
Boston, MA 02108
617-886-9088
stephenychow@rcn.com
Brian W. Nolan, Esq., Attorney
Mayer Brown, LLP
1221 Avenue of the Americas
New York, NY 10020
212-506-2500
bnolan@mayerbrown.com
James Etheridge
Etheridge Law Group
2600 E Southlake Boulevard
Suite 120-324
Southlake, TX 76092
817-470-7249
Jim@EtheridgeLaw.com
Thomas Gregory Sprankling, Attorney
Wilmer Cutler Pickering Hale and Dorr LLP
Suite 400
2600 El Camino Real
Palo Alto, CA 94306
650-858-6000
Thomas.Sprankling@wilmerhale.com

